   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106



February 17, 2010

Report Number: A-07-09-00322

Ms. Sandra Miller
Senior Vice President and President, Federal Government Solutions
National Government Services, Inc.
8115 Knue Road
Indianapolis, IN 46250

Dear Ms. Miller:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Pension Segmentation Requirements for the
Salaried Qualified Pension Plan at Blue Cross Blue Shield United of Wisconsin, for the Period
January 1, 1986, to December 31, 1998. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-09-00322
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Sandra Miller


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
   Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




     REVIEW OF THE PENSION
SEGMENTATION REQUIREMENTS FOR
THE SALARIED QUALIFIED PENSION
PLAN AT BLUE CROSS BLUE SHIELD
      UNITED OF WISCONSIN,
 FOR THE PERIOD JANUARY 1, 1986,
      TO DECEMBER 31, 1998




                        Daniel R. Levinson
                         Inspector General

                          February 2010
                          A-07-09-00322
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield United of Wisconsin

Blue Cross Blue Shield United of Wisconsin (BCBSUW), through its United Government
Services business unit, administered Medicare Part A operations under cost reimbursement
contracts with the Centers for Medicare & Medicaid Services (CMS). During our audit period
(January 1, 1986, to December 31, 1998), BCBSUW maintained two defined benefit pension
plans: a salaried pension plan and an hourly pension plan. For the purpose of this report, the
term BCBSUW will be associated with the findings concerning the segmentation of the salaried
pension plan pension assets for the period January 1, 1986, to December 31, 1998.

Medicare

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Procurement Regulations, Federal Acquisition Regulation (FAR), Cost Accounting
Standards (CAS), and Medicare contracts.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated specific segmentation requirements into the
Medicare contracts to ensure conformance with CAS 413. The Medicare contracts define a
segment and specify the methodology for the identification and initial allocation of pension
assets to the segment. Additionally, the contracts require Medicare segment pension assets to be
updated for each year after the initial allocation in accordance with CAS 412 and 413.

OBJECTIVE

Our objective was to determine whether BCBSUW complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •   identifying the Medicare segment’s pension asset base as of January 1, 1986, and

   •   updating the Medicare segment’s pension assets from January 1, 1986, to
       December 31, 1998.

SUMMARY OF FINDINGS

BCBSUW correctly computed the initial allocation of the Medicare segment pension assets as of
January 1, 1986; however, BCBSUW used an incorrect total company investment earnings
amount when allocating investment earnings to the Medicare segment for calendar years 1994,
1995, and 1998. Additionally, BCBSUW did not correctly account for long-term disability

                                                 i
premiums when updating its total company pension assets from January 1, 1998, to
December 31, 1998. As a result, BCBSUW understated the Medicare segment pension assets by
$13,145, and overstated total company pension assets by $145,604, as of December 31, 1998.

RECOMMENDATIONS

We recommend that BCBSUW:

    •   increase its Medicare segment pension assets as of December 31, 1998, by $13,145 and
        recognize $8,081,550 as the Medicare segment pension assets;

    •   decrease its total company pension assets as of December 31, 1998, by $145,604 and
        recognize $114,345,921 as the total company pension assets; and

    •   implement controls to ensure that in the future the Medicare segment is updated in
        accordance with CAS 412 and 413.

AUDITEE COMMENTS

In written comments on our draft report, National Government Services (NGS) concurred with
our findings and recommendations and described corrective actions that it will take. NGS stated
that BCBSUW’S Medicare contract was novated to NGS effective January 1, 2007; therefore,
NGS responded to our draft report.

While concurring with the findings and recommendations, NGS also suggested several revisions
to the text of the report.

NGS’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing NGS’s written comments, we revised the background section to clarify the
relationship between BCBSUW and NGS. We also revised the references (in Appendix A) to
the asset variance for the “Other” segment and the “Medicare” segment as NGS had suggested;
these revisions, though, did not have an effect on either the substance or the dollar amounts in
our findings and recommendations. After reviewing the other revisions suggested by NGS, we
determined that those revisions do not enhance the clarity or accuracy of this report; therefore,
we did not make the other suggested revisions.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Blue Cross Blue Shield United of Wisconsin ....................................................... 1
              Medicare ............................................................................................................... 1
              Federal Requirements ........................................................................................... 1
              Pension Segmentation ........................................................................................... 2

          OBJECTIVE, SCOPE AND METHODOLOGY ............................................................. 2
               Objective ............................................................................................................... 2
               Scope ..................................................................................................................... 2
               Methodology ......................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

          MEDICARE ASSET BASE (INITIAL ALLOCATION) AS OF JANUARY 1, 1986 ... 3

          UPDATE OF MEDICARE SEGMENT PENSION ASSETS.......................................... 4
              Federal Requirements ........................................................................................... 4
              Earnings and Expenses Understated ..................................................................... 4

          TOTAL COMPANY PENSION ASSETS AS OF DECEMBER 31, 1998 ..................... 4
               Federal Requirements ........................................................................................... 4
               Total Company Pension Assets Overstated .......................................................... 4

          RECOMMENDATIONS .................................................................................................. 5

OTHER MATTER...................................................................................................................... 5

          AUDITEE COMMENTS.................................................................................................. 5

          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................... 6

APPENDIXES

    A – BLUE CROSS BLUE SHIELD UNITED OF WISCONSIN STATEMENT OF
        MARKET VALUE OF SALARIED PENSION PLAN ASSETS FOR THE PERIOD
        JANUARY 1, 1986, TO DECEMBER 31, 1998

    B – AUDITEE COMMENTS




                                                                     iii
                   Glossary of Abbreviations and Acronyms

BCBSUW   Blue Cross Blue Shield United of Wisconsin
CAS      Cost Accounting Standards
CMS      Centers for Medicare & Medicaid Services
FAR      Federal Acquisition Regulation
NGS      National Government Services
UGS      United Government Services




                                       iv
                                       INTRODUCTION

BACKGROUND

Blue Cross Blue Shield United of Wisconsin

Blue Cross Blue Shield United of Wisconsin (BCBSUW), through its United Government
Services (UGS) business unit, administered Medicare Part A operations under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS). During our
audit period (January 1, 1986, to December 31, 1998), BCBSUW maintained two defined benefit
pension plans: a salaried pension plan and an hourly pension plan.

On January 1, 1999, United Wisconsin Services, Inc. (UWSI), the parent company of BCBSUW,
merged the salaried pension plan and the hourly pension plan. During the same time, UWSI
established a separate defined benefit pension plan, UGS Pension Plan, and moved all of its
government program employees into that pension plan.

In 2003, BCBSUW and UGS were purchased by WellPoint Health Networks, Inc. (WHN).
WHN became a part of Anthem, Inc., on November 30, 2004, and Anthem, Inc., changed its
name to WellPoint, Inc. Effective November 17, 2006, a consolidation of certain Medicare
operations occurred, forming a new subsidiary of WellPoint, Inc., called National Government
Services (NGS). This consolidation included UGS, and the UGS pension plan remained a stand-
alone defined benefit pension plan. Thus, although we are addressing this report to NGS, we
will associate the term BCBSUW with our findings and recommendations regarding the
segmentation of the salaried pension plan pension assets for the period January 1, 1986, to
December 31, 1998.

Medicare

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Procurement Regulations, Federal Acquisition Regulation (FAR), Cost Accounting
Standards (CAS), and Medicare contracts.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.




                                                 1
Pension Segmentation

CMS incorporated CAS 412 and 413 into the Medicare contracts effective October 1, 1980.
Beginning with fiscal year 1988, CMS incorporated segmentation requirements into Medicare
contracts. The Medicare contracts define a segment and specify the methodology for the
identification and initial allocation of pension assets to the segment. The contracts require
Medicare segment pension assets to be updated for each year after the initial allocation in
accordance with CAS 412 and 413. In claiming costs, contractors must follow cost
reimbursement principles contained in the FAR, CAS, and the Medicare contracts.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine whether BCBSUW complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •    identifying the Medicare segment’s pension asset base as of January 1, 1986, and

   •    updating the Medicare segment’s pension assets from January 1, 1986, to
        December 31, 1998.

Scope

We reviewed BCBSUW’s initial allocation of the Medicare segment’s pension assets and its
update of the Medicare segment’s pension assets from January 1, 1986, to December 31, 1998.

Achieving our objectives did not require us to review BCBSUW’s overall internal control
structure. However, we reviewed controls relating to the identification of the Medicare segment,
the initial allocation of the Medicare segment pension assets, and the update of the Medicare
segment’s pension assets.

We performed fieldwork at BCBSUW’s office in Milwaukee, Wisconsin, during August 2009.

Methodology

To accomplish our objective, we did the following:

   •    We reviewed the applicable portions of the FAR, CAS, and Medicare contracts.

   •    We reviewed the information provided by BCBSUW’s actuarial consulting firm, which
        included the pension plan’s assets, liabilities, normal costs, contributions, benefit
        payments, investment earnings, and administrative expenses. We used this information
        to calculate the Medicare segment pension assets.



                                                2
   •   We obtained and reviewed the pension plan documents, actuarial valuation reports, and
       Department of Labor/Internal Revenue Service Forms 5500 used in calculating the
       Medicare segment pension assets.

   •   We interviewed BCBSUW staff responsible for identifying the Medicare segment to
       determine whether the segment was properly identified in accordance with the Medicare
       contracts.

   •   We reviewed BCBSUW’s accounting records to verify the segment identification and
       benefit payments made to the Medicare segment.

   •   We provided the CMS Office of the Actuary with the actuarial information necessary for
       it to calculate the Medicare segment pension assets as of December 31, 1998.

   •   We reviewed the CMS actuaries’ methodology and calculations.

We performed a separate review of the BCBSUW hourly pension plan (A-07-09-00321).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

BCBSUW correctly computed the initial allocation of the Medicare segment pension assets as of
January 1, 1986; however, BCBSUW used an incorrect total company investment earnings
amount when allocating investment earnings to the Medicare segment for calendar years 1994,
1995, and 1998. Additionally, BCBSUW did not correctly account for long-term disability
premiums when updating its total company pension assets from January 1, 1998, to
December 31, 1998. As a result, BCBSUW understated the Medicare segment pension assets by
$13,145, and overstated total company pension assets by $145,604, as of December 31, 1998.

Appendix A presents details on the Medicare segment’s pension assets from January 1, 1986, to
December 31, 1998, as determined during our audit.

MEDICARE ASSET BASE (INITIAL ALLOCATION) AS OF JANUARY 1, 1986

The Medicare contracts provide for separate identification of the pension assets for the Medicare
segment. The identification involves the allocation of assets to the Medicare segment as of the
first pension plan year after December 31, 1985, in which the salary criterion was met. The
allocation is to use the ratio of the actuarial liabilities of the Medicare segment to the actuarial
liabilities of the total plan, as of the later of the first day of the first plan year after
December 31, 1980, or the first day of the first pension plan year following the date such
Medicare segment existed. This ratio is known as the asset fraction.

                                                 3
BCBSUW correctly computed the asset fraction of 6.3560 percent as of January 1, 1981.
Furthermore, BCBSUW correctly computed the initial allocation of the Medicare segment
pension assets totaling $2,854,624 as of January 1, 1986.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

Federal Requirements

The Medicare contracts state that “. . . the pension assets allocated to each Medicare Segment
shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires that the
asset base be adjusted by contributions, unfunded accruals, income, benefit payments, and
expenses. The CAS requires investment income and expenses to be allocated among segments
based on the ratio of the segment’s average value of assets to total company average value of
assets.

Earnings and Expenses Understated

BCBSUW understated investment earnings, less administrative expenses, by $13,145 for the
Medicare segment primarily because it used an incorrect total company investment earnings
amount when allocating investment earnings to the Medicare segment for calendar years 1994,
1995, and 1998. For its allocations in these three years, BCBSUW incorrectly included a portion
of the total company benefit payments in the investment earnings. We allocated earnings and
expenses, based on the applicable CAS requirements, and determined that BCBSUW understated
the Medicare segment pension assets by $13,145.

TOTAL COMPANY PENSION ASSETS AS OF DECEMBER 31, 1998

Federal Requirements

CAS 413.50(c)(7) requires that the asset base be adjusted by contributions, unfunded accruals,
income, benefit payments, and expenses.

Total Company Pension Assets Overstated

BCBSUW overstated total company pension assets by $145,604 primarily because it did not
account for long-term disability premiums when updating its total company pension assets from
January 1, 1998, to December 31, 1998. We included the long-term disability premiums in our
update of the total company assets and determined that BCBSUW overstated the total company
pension assets as of December 31, 1998, by $145,604.




                                               4
RECOMMENDATIONS

We recommend that BCBSUW:

    •    increase its Medicare segment pension assets as of December 31, 1998, by $13,145 and
         recognize $8,081,550 as the Medicare segment pension assets;

    •    decrease its total company pension assets as of December 31, 1998, by $145,604 and
         recognize $114,345,921 as the total company pension assets; and

    •    implement controls to ensure that in the future the Medicare segment is updated in
         accordance with CAS 412 and 413.

                                          OTHER MATTER

BCBSUW correctly computed that the pension plan was fully funded throughout the audit
period. Therefore, BCBSUW was correct when it did not claim any pension cost for Medicare
reimbursement for fiscal years 1988 through 1998.

AUDITEE COMMENTS

In written comments on our draft report, NGS 1 concurred with our findings and
recommendations and stated that it will make the appropriate adjustments to the Medicare
segment pension assets and total company pension assets. In addition, NGS stated that it will
review the processes in place to update the Medicare segment plan assets to ensure that those
processes follow the provisions of CAS 412 and 413.

While concurring with the findings and recommendations, NGS also suggested several revisions
to the text of the report. Specifically, NGS requested that we make the following revisions:

    •   Revise the “Summary of Findings” paragraph in both the Executive Summary and the
        text of our report to indicate that BCBSUW used an incorrect total company benefit
        payments amount when allocating investment earnings to the Medicare segment for
        calendar year 1994, and that a portion of 1995 income was allocated to 1994.
        Furthermore, NGS requested that we revise the term “long-term disability premiums” to
        “liabilities payable” in this portion of the report.

    •   Revise the background section to further clarify the relationship between BCBSUW and
        NGS.

    •   Revise the “Earning and Expenses” section to indicate that the understatement primarily
        occurred because BCBSUW used an incorrect total company benefit payments when
        allocating investment earnings to the Medicare segment in calendar year 1994.

1
 BCBSUW’S Medicare contract was novated to NGS effective January 1, 2007; therefore, NGS responded to our
draft report.

                                                     5
   •   In the Appendix, revise the asset variance to indicate ($158,749) for the “Other” segment
       and $13,145 for the “Medicare” segment.

NGS’s comments are included in their entirety as Appendix B

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing NGS’s written comments, we revised the background section to clarify the
relationship between BCBSUW and NGS. We also revised the references (in Appendix A) to
the asset variance for the “Other” segment and the “Medicare” segment as NGS had suggested;
these revisions, though, did not have an effect on either the substance or the dollar amounts in
our findings and recommendations. After reviewing the other revisions suggested by NGS, we
determined that those revisions do not enhance the clarity or accuracy of this report; therefore,
we did not make the other suggested revisions.




                                                 6
APPENDIXES
                                                                                                           Page 1 of 4
                    APPENDIX A: BLUE CROSS BLUE SHIELD UNITED OF WISCONSIN 

                     STATEMENT OF MARKET VALUE OF SALARY PENSION ASSETS 

                                        FOR THE PERIOD 

                               JANUARY 1, 1986, TO DECEMBER 31, 1998 


              Description           I        I   Total Company       I   "Other" Segment     I   Medicare Segment

Assets January 1, 1986                  11           $44,912,275              $42,057,651              $2,854,624

Transferred Prepay!!:!ent Credits                              0                        0                       0
Contributions                           21                     0                        0                       0
Other Transactions                      31                   (62                      (62)                      0
Earnings                                41             7,535,915                7,054,687                 481,228
Benefit Payments                        51            (1,082,173               (1,039,829                 (42,344
Expenses                                61              (341,790)                (319,964)                (21,826)
Transfers                               71                     0                   51,076                 (51,076)

Assets January 1,1987                                $51,024,165     I        $47,803,559    I         $3,220,606

Transferred Prepayment Credits          81                      0                       0                       0
Contributions                                                   0                       0                       0
Other Transactions                                         3,171                    3,171                       0
Earnings                                               3,191,231                2,988,450                 202,781
Benefit Payments                                      (1,375 ,235)             (1,331,309)                (43,926)
Expenses                                                (293 ,720)               (275,056)                (18,664)
Transfers                                                       0                  43,324                 (43,324)

Assets January 1,1988                                $52,549,612     I        $49,232,139    I         $3,317,473

Transferred Prepayment Credits                                 0                        0                       0
Contributions                                                  0                        0                       0
Other Transactions                                             0                        0                       0
Earnings                                               6,061,296                5,673,143                 388,153
Benefit Payments                                      (2,224,944               (2,177,849)                (47,095)
Expenses                                                (257,320                 (240,842                 (16,478
Transfers                                                      0                   34,425                 (34,425)

Assets January 1, 1989                               $56,128,644     I        $52,521,016    I         $3,607,628

Transferred Prepayment Credits                                 0                        0                       0
Contributions                                                  0                        0                       0
Other Transactions                                             0                        0                       0
Earnings                                               8,583,452                8,027,091                 556,361
Benefit Payments                                      (2,301,728               (2,213,556)                (88,172
Expenses                                                (353,913                 (330,973)                (22,940
Transfers                                                      0                 (203,464                 203,464

Assets January 1, 1990                               $62,056,455     I        $57,800,114    I         $4,256,341

Transferred Prepayment Credits                                 0                        0                        0
Contributions                                                  0                        0                        0
Other Transactions                                             0                        0                        0
Earnings                                               1,359,746                1,265,967                  93,779
Benefit Payments                                      (1,812,077)              (1,734,197)                (77,880
Expenses                                                (287,089                 (267289                  (19 ,800
Transfers                                                      0                 (497,773)                497,773

Assets January 1, 1991                               $61,317,035     I        $56,566,822    I         $4,750,213
                                                                     I                       I
                                                                                                   Page 2 of 4



             Description         I   I   Total Company       I   "Other" Segment     I   Medicare Segment

Assets January 1, 1991                       $61,317,035              $56,566,822              $4,750,213

Transferred Prepayment Credits                         0                         0                      0
Contributions                                          0                         0                      0
Other Transactions                                     0                         0                      0
Earnings                                      11,707,025               10,796,266                 910,759
Benefit Payments                              (1819,779                (1,718 ,215               (101,564
Expenses                                        (435,924                 (402,011)                (33,913)
Transfers                                              0                  150,121                (150,121)

Assets January 1, 1992                       $70,768,357     I        $65,392,983    I         $5,375,374

Transferred Prepayment Credits                         0                        0                        0
Contributions                                          0                        0                        0
Other Transactions                                     0                        0                        0
Earnings                                       3806,242                 3,515472                  290,770
Benefit Payments                              (2,187,511)              (2,082,056)               (105,455)
Expenses                                        (498,848)                (460,740)                (38,1 08)
Transfers                                              0                  350,134                (350,134

Assets   Janu~   1, 1993                     $71,888,240     I        $66,715,793    I         $5,172,447

Transferred Prepayment Credits                         0                         0                      0
Contributions                                          0                         0                      0
Other Transactions                                     0                         0                      0
Earnings                                       7,180,729                6,663,185                 517,544
Benefit Payments                              (2,244,776)              (2, 100,650               (144,126)
Expenses                                        (486,190)                (451,148)                (35,042
Transfers                                              0                   164,983               (164,983

Assets January 1,1994                        $76,338,003     I        $70,992,163    I         $5,345,840

Transferred Prepayment Credits                         0                        0                       0
Contributions                                          0                        0                       0
Other Transactions                                     0                        0                       0
Earnings                                        (784,398                 (729,501                 (54,897
Benefit Payments                              (2,449,750)              (2,278,096)               (171,654)
Expenses                                        (362,755)                (331,125)                (31,630)
Transfers                                              0                  (52361                   52,361

Assets January 1, 1995                       $72,741,100     I        $67,601,080    I         $5,140,020

Transferred Prepayment Credits                          0                       0                         0
Contributions                                           0                       0                         0
Other Transactions                                      0                       0                         0
Earnings                                      17,721 ,294              16,467,387                1,253,907
Benefit Payments                              (2,805 ,053)             (2,626,576)                (178,477)
Expenses                                        (468,095)                (428,832                  (39 ,263)
Transfers                                               0                (115,683                  115,683

Assets January 1,1996                        $87,189,246     I        $80,897,376    I         $6,291,870
                                                             I                       I
                                                                                                                             Page 3 of 4


                  Description               1     1      Total Company          1   "Other" Segment        ~    Medicare Segment

    Assets January 1,1996 	                                     $87,189,246                 $80,897,376                  $6,291,870

    Transferred Prepayment Credits
    Contributions                                                          °                           °                           °
                                                                           °                           °                           °
    Other Transactions
    Earnings                                                     12,532,182°                 11,626,591°                    905,591°
    Benefit Payments                                             (2,877,436)                 (2,693,416                    (184,020)
    Expenses                                                       (514,950                    (470,904                     (44,046
    Transfers                                                                                   370,924                    (370,924
                                                                           °
    Assets January 1,1997 	                                    $96,329,042 1               $89,730,571 1                $6,598,471

    Transferred Prepayment Credits
    Contributions                                                          °                           °                           °
    Other Transactions                                                     °                           °                           °
    Earnings                                                     16,694,001°                 15,565,320°                  1,128,681°
    Benefit Payments                                             (3,977,581)                 (3,546,698)                   (430,883)
    Expenses                                                       (536,371)                   (490,732)                    (45,639)
                                                                                                (60,276)                     60,276
    Transfers
                                                                           °
    Assets January 1,1998 	                                   $108,509,091 1              $101,198,185 1                $7,310,906

    Transferred Prepayment Credits
    Contributions                                                          °                           °                           °
                                                                           °                           °                           °
    Other Transactions
    Earnings                                                     13,489,115°                 12,578,807°                    910,308°
    Benefit Payments                                             (7,081 ,770)                (6,637,071)                   (444,699)
    ExPenses                                                       (570 ,515)                  (522,388)                    (48,127)
    Transfers                                                                                  (353,162                     353,162
                                                                           °
    Assets December 31 1998                                   $114,345,921 1              $106,264,371 1                $8,081,550
    Per UGS                                      9/1          $114,491,525                $106,423,120 1                $8,068,405
    Asset Variance                              1011             ($145,604) 1                ($158,749)1                   $13,145
                                                   1	                           1                          1

FOOTNOTES

 lL We calculated the Medicare segment pension assets based upon the audited asset fraction (6.3560 percent).       We computed
    the asset fraction as explained in the findings section of the report. The arnOllllts shown for the "Other" segment represent the
    difference between the Total Company and the Medicare segment. All pension assets are shown at market value.

 2!... 	 We obtained Total Company contribution amOllllts from the actuarial valuation reports and Department of Laboriintemal 

    Revenue Service (DOL/IRS) Forms 5500. We allocated Total Company contributions to the Medicare segment based on the 

    ratio of the Medicare segment funding target divided by the Total Company funding target. Contributions in excess of the 

    funding targets were treated as prepayment credits and accounted for in the "Other" segment until needed to fund pension 

    costs in the future. 


 1L We obtained the other transactions amounts from the actuarial valuation reports.   These other transactions amounts represent 

    a transfer of plan assets from the salaried pension plan to the hourly pension plan. 


 .:U We obtained investment earnings from the actuarial valuation reports and the DOL/IRS Forms 5500. We allocated 

    investment earnings based on the weighted average of the market value of assets (MVA) available during the Plan Year. The 

    weighted average ofMVA is based on the ratio of the segment's weighted average to the Total Company weighted average, 

    which is based on the time of contributions, benefit payments, and administrative expenses. 

                                                                                                                            Page 4 of 4


2!... 	 We based the Medicare segment's benefit payments on actual payments to Medicare retirees. We obtained the benefit 

   payments from documents provided by Blue Cross Blue Shield United of Wisconsin (BCBSUW). 


2!.. We allocated administrative expenses to the Medicare segment in proportion to investment earnings as required by the Cost
   AccOllllting Standards.

1!.. We identified participant transfers between segments based on the participant data files provided by BCBSUW' s actuarial
   consulting firm. Asset transfers were equal to the accrued actuarial liability determined llllder the accrued benefit cost
   method .

.§L 	 Prepayment credits represent funds available to satisfy future fimding requirements and are applied to future fllllding 

     requirements before current year contributions in order to reduce interest costs to the Federal Government. Prepayment 

      credits are transferred to the Medicare segment as needed to cover fllllding requirements. 


2!... We obtained the pension asset amollllts as of December 31,1998, from the DOL/IRS Form 5500.

101 	The asset variance represents the difference between our calculation of Medicare segment pension assets and BCBSUW's
     calculation of the Medicare segment pension assets.
                                                                                                                    Page lof3



                                  APPENDIX B: AUDITEE COMMENTS 





f1,LNatkIMI GcMrnment
 I'f 	       IK'"
    A CMS CC<lIToCItd I\ft>ol                                                         Medicare
    No,,,,,,,,l Gvvnnmen! Srrvkt5, In<. 

    ww..... Ncst.Wk."".com 




    January 28, 2010

    Mr. Patrick J. Cogley
    Regiona! Inspector General for Audit Services
    National External Audit Revie ..... Center 

    1100 Walnut St., Suite 850 

    Kansas City, Missouri 64106-2197

    Reference: Report Number A-07-09-00J22

    Dear Mr. Cogley:

    We have re<:eived the draft audit report from the lnspectQr General entitled "Review of Pension
    Segment,ltion Requirements For the Salaried Qualified Pension Plan At Blue Cross Blue Shield United
    of Wbconsin, For The Period January 1. 1986 To December 31, 1998," and thank you for the
    opportunity to respond.1

    We concur with the findings and recommendations ou tlined in the report and will make the
    appropriate adjustments to Medicare segment pension assets and total company pension assets. We
    will also review the processes in place to update Medicare segment plan assets to ensure those
    processes follow CAS 412 and 413.

    We believe the accuracy and clarity of the report would be enhanced with the adoption of the 

    following proposed revisions: 


          • 	 In the "Executive Summary" section (page i) within the "Summary of Findings" caption, please
              replace that paragraph with the following:

              BCBSUW correctly computed the initial allocation of the Medicare segment pension assets as of
              January 1, 1986; however, BCBSUW used an incorrect total company benefit payments amount,
              resulting in an incorrect investment earnings amount when allocating investment earnings to
              the Medicare segment for calenda r year 1994. Also, BCBSUVv' allocated a portion of 1995
              Income to the 1994 year. Additionally, BCBSUW did nOI reflect liabilities payable when
              updating its total company pension assets from Janua ry 1, 1998 to December 31, 1998. As a

    1 The Medicare contract to which this report rela tes was novated to Nationa! Government Services, Inc. (NGS)

    effe<:tive January l, 2007.
                                                                                                     Page 2 of3




January 28, 20]0
Page 2 of 3

       result, BCBSUW Wlderstated the Medicare segment pension assets by $13,145 and overstated
       total company pension assets by $145,604, as of December .31, 1998.

    • 	 In the "UackgroWld" section (page I) withi n the "Blue Croas Blue Shield United of Wisconsin"
       caption, please replace the firs t sentence in the first paragraph with the following:

       Blue Cross Blue Shield Uni ted of Wisconsin (BCBSUW) through its United Government
       Services (UGS) business unit, administe red Medicare Part A operations unde r cost
       reimbursement contracts with the Centers for Medicare & Med icaid Services (CMS).

    • 	 in the "Background" section (page I) within the "Blue Croas Blue Shield United of Wisconsin"
        caption, please replace the third paragraph with the following:

       In 2003, BCBSUW and UGS we re purchased by WelWoint Health Networks, inc. ("WHN").
       WHN became a part of Anthem, Inc. on November 30, 2004, and Anthem inc. changed its name
       to WelLPoint, inc. Effective November 17, 2006 a consolidation of certain Medicare Operations
       occurred forming a new subsidiary of WellPoint lnc. called National Government Services, 1m:.
       This consolidation included UGS and the UGS Pension Plan remained a stand-alone defined
       benefit pension plan. Thus although we are add ressing this report to NGS, we will associate
       the term BCBSUW with our fi ndings and recommendations regarding the segmentation of the
       salaried pension plan pension assets for the period January 1, 1986, to December 31- 1998.

    • 	 In the "Findings and Recommendation" caption (page 3), please replace the first paragraph
       with the pa ragraph reflected in the first bullet abo ve.

    • 	 in the "Update of Medica re Segment Pension Assets" section (page 4) within the "Earnings and
        Expenses Understated" caption, please replace the first sentence of the paragraph with the
        following:

       BCBSUW understated investment earnings, less administrative expenses, by $13, 145 for the
       Medicare segment primarily because it used an incorrect total company benefit payments,
       resulting in an incorrect total company investment earnings amount when allocating
       ir1\'estment earnings to the Medicare segment for calendar year 1994."

    • 	 In the "Total Company Pension Assets as of December 311998" section (page 4) within the
        Total Company Pension Asse ts Overst1lted" caption, plea~e replace the paragraph with the
        following:

      BCBSUW overstated total com pany pension assets by $145,504 primarily because it did not
      reflect liabilities payable when updating its to tal company pension assets from January 1, 1998
      to December 31, 1998. We reflec ted the liabilities payable in our update of the total company
      assets and determined that BCBSUW overstated the to tal company pension assets as of
      December 31, 1998 by $145,604.
                                                                                                          Page30f3




January 28, 2010
Page 3 of 3

    • 	 In the Append ix (page 4 of 5), the asset variance for the "other segment" shou ld be reflected as
        ($158,749) and the asset var iance for the "Medicare" segmen t sho uld be reflected as $13, 145.

We ap preciate the op portun ity to res pond to this draft report. ff you have any fu rther questions, J can
be reac hed at 414-459-5606 or via email at todd.reiger@wellpoint.com.

Sincerely,




Todd W. Reiger, CPA
Director o f Acco unting & Re porting
National Government Serv ices, Inc.

CC: 	          Sand y Miller
               Michael Kapp
               Jim Elmore
               Rob Sq uire
               Wendy Per kin s
               Joanne Imel - WellPoint 

               Marilyn Bryan - CMS 

               Jen enne Tambke - OIG 

